    August 3, 2006




Financial Management
Contract Award Process for the
Financial Information Resource
System
(D-2006-104)




                   Department of Defense
                  Office of Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CPARS                 Contractor Performance Assessment Reporting System
DFARS                 Defense Federal Acquisition Regulation Supplement
DSB                   Defense Science Board
FAR                   Federal Acquisition Regulation
FIRST                 Financial Information Resource System
GAO                   Government Accountability Office
IMDS                  Integrated Maintenance Data System
PRAG                  Performance Risk Assessment Group
SSA                   Source Selection Authority
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology and
                         Logistics
                Department of Defense Office of Inspector General
Report No. D-2006-104                                                      August 3, 2006
   (Project No. D2005-D000FB-0162.000)

                       Contract Award Process for the
                    Financial Information Resource System

                                 Executive Summary

Who Should Read This Report and Why. Air Force acquisition personnel who are
involved in the acquisition decision-making process should read this report because it
identifies issues on the source selection process used by the Air Force in awarding the
Financial Information Resource System (FIRST).

Background. In November 2004, the Acting Under Secretary of Defense for
Acquisition, Technology, and Logistics (USD[AT&L]), commissioned a study of Air
Force acquisition actions executed by Ms. Darlene Druyun. The study determined that
eight contract actions needed further review including the award of FIRST.

FIRST is an Air Force endeavor to replace legacy budget systems with modern system
architecture and provide Air Force financial managers with an integrated information
system that includes functional process improvements. FIRST was a cost plus award fee
contract with a 6-year term valued at $37.5 million and a 4-year extension for an
additional $23 million. The FIRST contract was awarded to Andersen Consulting in
April 2001. As of March 2006, approximately $63.8 million has been expended on the
FIRST system.

Results. The Air Force did not award the FIRST contract in accordance with the Federal
Acquisition Regulation or the Defense Federal Acquisition Regulation Supplement.
Specifically, the Principal Deputy, acting as the source selection authority, directed that
the past performance rating for Andersen Consulting be upgraded to aid it in winning the
FIRST contract; the source selection authority chose not to recognize poor performance
when justifying the contract award to Andersen; and the contract file contained
documentation too limited to support source selection decisions. As a result, the Air
Force may have unfairly awarded the FIRST contract to Andersen Consulting. The
USD(AT&L) has implemented many of the recommendations made by the Defense
Science Board. USD(AT&L) and the Secretary of the Air Force have both issued
memorandums that specifically address procurement integrity and ethics. The Air Force
has also implemented corrective actions that include mandatory procedures for source
selection; the source selection advisory council; the source selection evaluation team; and
specifically, the source selection authority. Two of our prior audit reports on the eight
contracts the study identified as questionable have made significant recommendations
that would, if implemented, correct the deficiencies noted in this report. Therefore, we
are making no further recommendations at this time.

Management Comments. We provided a draft of this report to the Office of the
Secretary of the Air Force for Acquisition and Management on July 13, 2006. No written
response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                    i

Background                                                          1

Objectives                                                          1

Finding
     Contract Award for the Financial Information Resource System    2

Appendixes
     A. Scope and Methodology                                        9
     B. Report Distribution                                         11
________________________________________________________________________



Background
      Darleen Druyun. On April 20, 2004, Ms. Darleen Druyun, the former Principal
      Deputy for the Assistant Secretary of the Air Force for Acquisition and
      Management, entered a plea of guilty for conspiring to violate section 208(a),
      title 18, United States Code, admitting that she may have allowed personal
      interests to affect her judgment on acquisition decisions she made from 1993 until
      her retirement in November 2002. In October 2004, Ms. Druyun was sentenced
      in United States District Court to 9 months in prison, 7 months of community
      confinement, and 150 hours of community service, and was fined $5,000.

      Audit Request. In November 2004, the Acting Under Secretary of Defense for
      Acquisition, Technology, and Logistics (USD[AT&L]) commissioned a study in
      response to the admission by Ms. Druyun. The Druyun study focused on a review
      of Air Force acquisition actions executed by Ms. Druyun. It determined that eight
      contract actions needed further review. The Acting USD(AT&L) requested that
      the DoD Office of Inspector General review those eight contracts including the
      award of the Financial Information Resource System (FIRST). We announced
      our audit on April 20, 2005.

      FIRST. The FIRST system is an Air Force endeavor to replace legacy budget
      systems with modern system architecture and provide Air Force financial
      managers with an integrated information system that includes functional process
      improvements. FIRST was a cost-plus-award-fee contract with a 6-year term
      valued at $37.5 million and a 4-year extension for an additional $23 million. The
      FIRST contract was awarded to Andersen Consulting in April 2001. As of
      February 2006, approximately $63.8 million has been expended on FIRST.


Objectives
      The overall objective was to determine whether the FIRST system was procured
      in accordance with the Federal Acquisition Regulation (FAR) and the Defense
      Federal Acquisition Regulation Supplement (DFARS). Specifically, we assessed
      whether evaluation factors used for awarding the FIRST contract were properly
      determined. See Appendix A for a discussion of the scope and methodology and
      prior audit coverage.




                                          1
________________________________________________________________________


              Contract Award for the Financial
              Information Resource System
              Air Force did not award the FIRST contract in accordance with the FAR
              and the DFARS. The Principal Deputy, acting as the Source Selection
              Authority, directed that the past performance rating for Andersen
              Consulting (Andersen) be upgraded to aid it in winning the FIRST
              contract. The Principal Deputy chose to ignore poor past performance
              when justifying the contract award to Andersen Consulting. The contract
              file contained limited documentation to support source selection decisions.
              The Principal Deputy was able to control the contents of the contract
              folder because the Air Force lacked proper segregation of duties and did
              not provide adequate oversight or accountability for her actions. As a
              result, Air Force may have unfairly awarded the FIRST contract to
              Andersen Consulting.


Acquisition Guidance
   Federal Acquisition Regulation (FAR). FAR Part 3, “Improper Business Practices
   and Personal Conflicts of Interest,” April 24, 1998, states “Government business shall
   be conducted in a manner above reproach and, except as authorized by statute or
   regulation, with complete impartiality and with preferential treatment for none. The
   general rule is to avoid strictly any conflict of interest or even the appearance of a
   conflict of interest in Government-contractor relationships.”

   FAR Part 4, “Administrative Matters,” 1997 edition of section 4.8, “Government
   Contract Files,” states documentation in the contract file must be sufficient to
   constitute a complete history of the transaction to support actions taken and provide
   information for reviews and investigations. The contract file (and related records or
   documents, including successful proposals) must be retained for 6 years and 3 months
   after final payment for contracts.

   FAR Part 15, “Contracting by Negotiation,” April 25, 2000, section 15.305, states
   that past performance is one indicator of an offeror’s ability to perform the contract
   successfully. The currency and relevance of the information, the source and context
   of the data, and the general trend of the contractor’s performance must also be
   considered.

   Defense FAR Supplement. The 1998 edition of DFARS Part 215, “Contracting by
   Negotiation,” section 215.605, “Evaluation Factors and Subfactors,” states that
   evaluation and award should be based, to the maximum extent practicable, on best
   overall value to the Government in terms of quality and other factors.

   Air Force Source Selection Guidance. The Air Force uses a confidence assessment
   rating to rate a prospective contractor on its past performance. According to the
   source selection plan, the performance risk assessment group (PRAG) assesses the
   performance confidence associated with each offeror’s capability to perform based on
   its present and past performance.




                                            2
________________________________________________________________________

   Past Performance Evaluation Ratings. The confidence assessment considers the
   number and severity of problems with previous contracts, the effectiveness of any
   corrective actions taken by the offeror, and the offeror’s overall work record. The Air
   Force defines past performance ratings in Mandatory Procedures 5315, “Source
   Selection,” May 17, 2005. A “Significant Confidence” rating is based on the
   offeror’s performance record with little doubt that the offeror will successfully
   perform the new requirement. A “Confidence” rating is based on the offeror’s
   performance record with some doubt that the offeror will successfully perform the
   required effort.

   Performance Risk Assessment Group. The PRAG examines an offeror’s relevant
   present and past work record to determine its ability to perform what is promised in
   the proposal using the Contractor Performance Assessment Reporting System
   (CPARS).

   The CPARS is designed for contractor performance assessments or evaluations
   providing a record with both positive and negative elements of a given contract
   during a specified period of time. When evaluating contractor performance each
   CPARS assessment or evaluation is based on objective facts and is supported by
   program and contract management data, such as cost performance reports; customer
   comments; quality reviews; technical interchange meetings; financial solvency
   assessments; construction and production management reviews; contractor operations
   reviews; functional performance evaluations; and earned contract incentives.
   CPARS is normally used by DoD contracting individuals to assess prior performance
   of potential contractors.


FIRST Contract Award
   Andersen’s Past Performance. The PRAG used the CPARS assessment of
   Andersen’s past performance as prime contractor for the Integrated Maintenance Data
   System (IMDS). Andersen was awarded the $65 million contract in 1996 to integrate
   existing legacy systems that support the Air Force maintenance management and
   reporting activities. The contract lapsed in 2000.

   According to CPARS, Andersen’s past performance on IMDS was inadequate and
   CPARS indicated that Andersen had missed deadlines, conducted incomplete product
   tests, and that the project had cost overruns. The PRAG summary of Andersen’s past
   performance stated that there were seven prior contracts submitted for review, of
   which only two were considered very relevant and one was considered relevant.
   Based on the limited relevance of contracts and the inadequacy of IMDS past
   performance, the PRAG rated Andersen’s ability to successfully complete the
   contract as “Confidence.”

   Change in Past Performance Rating. Ms. Druyun directed that the inadequacy of
   past performance on the IMDS contract not be included in the Andersen past
   performance rating. Specifically, the Director of the source selection evaluation team
   stated that Ms. Druyun directed that he disregard Andersen’s negative past
   performance. The PRAG chair stated that she was instructed by Ms. Druyun to raise
   the rating for Andersen Consulting from “Confidence” to “Significant Confidence.”

   The change in the confidence rating was documented in two sets of briefing charts.
   The October 6, 2000, briefing charts that were used to brief the Source Selection

                                            3
________________________________________________________________________

   Advisory Council showed that the original rating for Andersen was “Confidence.”
   However, in a competitive range briefing to Ms. Druyun on October 10, 2000, the
   briefing charts showed a “Significant Confidence” rating for Andersen. The Druyun
   Study indicated that the evaluation of past performance was upgraded for one offeror
   (Andersen) which eventually was the winner of the contract.

  Justification for the Changed Rating. Ms. Druyun justified the change in the past
  performance rating from “Confidence” to “Significant Confidence” by providing a
  member of the source selection advisory council with an August 9, 2000,
  memorandum addressed to the Defense Logistics Agency. The memorandum stated
  that Andersen’s inadequate performance on IMDS reflected an Air Force change in
  direction. The memorandum indicated that the IMDS strategy called for initial
  operational test and evaluation on a premier fighting wing. However, the Wing
  selected for the test was later part of an air expeditionary force that had frequent
  deployments. However, we spoke with the sub-contractor for IMDS who stated the
  Air Force could have used any Air Force Wing to test IMDS. She also stated that the
  Air Force spent approximately $125 million with no return on their investment. The
  IMDS contract was allowed to lapse in July 2000 so the Air Force could pursue its F-
  22 program.

   As the Source Selection Authority (SSA), Ms. Druyun chose to ignore poor
   performance when justifying the award to Andersen. For example, Ms. Druyun
   praised the past performance of one of Andersen’s subcontractors indicating that their
   CPARS stated that they provided technical, professional, and highly qualified
   personnel and were committed to providing a quality product on time at or below
   agreed cost. However, the CPARS reports regarding Andersen’s inadequate past
   performance related to the IMDS contract was removed from consideration by
   direction of Ms. Druyun. All contracting personnel can access CPARS to obtain
   relevant facts regarding potential contractor past performance. They need to use that
   information consistently and in an objective manner.

   The contract file contained insufficient documentation to support source selection
   decisions. A rating of “Significant Confidence” was not adequately supported by
   Andersen’s past performance. Our review of the contract file indicated that the file
   contained briefing charts that synopsized the results of the source selection evaluation
   team analysis. However, the contract file did not contain the documents needed to
   support the analysis of contractor proposals for the FIRST acquisition. Contracting
   Personnel stated that Ms. Druyun preferred to have briefing charts that synopsized the
   source selection results. Contracting personnel that participated in the FIRST
   acquisition stated that they destroyed the records because they believed them to be
   past their retention date. The information presented in the briefing slides was
   inadequate to allow us to substantiate any of the ratings.




                                            4
________________________________________________________________________



Air Force Acquisition Management
   Segregation of Duties. As a control measure to reduce the risk of error or fraud,
   segregation of duties provides that no individual controls all key aspects of an event.
   Ms. Druyun was able to direct the outcome of the award of the FIRST contract
   because the Air Force lacked proper segregation of duties.

   The Assistant Secretary of the Air Force for Acquisition is the Air Force Acquisition
   Executive and the Senior Procurement Executive overseeing Air Force acquisition
   activities. As the Principal Deputy for the Assistant Secretary of the Air Force for
   Acquisition, Ms. Druyun provided advice on acquisition matters to the Secretary of
   the Air Force, the Assistant Secretary of the Air Force for Acquisition, and the Air
   Force Chief of Staff. She supervised, directed, and oversaw management of Air
   Force acquisition programs and acquisition streamlining.

   Over time Ms. Druyun was given authority by Air Force civilian leadership despite
   concerns expressed by many Air Force senior military officers. In January 2001, the
   Acting Secretary of the Air Force delegated Ms. Druyun responsibility for oversight
   and execution of program executive officer and designated acquisition commander
   programs. As the program executive officer and designated acquisition commander,
   Ms. Druyun had direct, continuous, daily interaction with the program offices,
   acquisition command field activities, and headquarters staffs. The program executive
   officer and designated acquisition commander manages acquisition program costs and
   schedules (to meet performance requirements within approved baselines), program
   direction, and acquisition strategy. In addition, Ms. Druyun had responsibility for
   chairing acquisition strategy panels and assumed source selection authority for all
   procurement actions that required decisions at the Assistant Secretary for Acquisition
   level.

   The general control structure for the oversight and execution of major defense
   acquisition programs requires a separation between program management and
   personnel who make decisions on procurement. The program executive officer on the
   program side would be equivalent to the head of a contracting activity. Checks and
   balances are built into the control structure, so long as the separation is maintained,
   not only between program and procurement execution but also between execution and
   oversight. However, as the principal deputy to the senior acquisition executive in the
   Air Force, Ms. Druyun appeared to serve both branches of the Air Force acquisition
   organization. Therefore, from the beginning of an acquisition she had authority for
   source selection and program execution. Consequently, Ms. Druyun was able to
   control all key aspects of the acquisition of the FIRST system.

   Minimal Oversight and Accountability. The Air Force lacked adequate oversight
   or accountability for the acquisition of the FIRST system. Ms. Druyun received little
   oversight or supervision from political appointees in the Air Force and in the Office
   of the Secretary of Defense who should have supervised her. The Secretary of the
   Air Force for Acquisition should have been her immediate supervisor. However, that
   position was vacant for long periods. Ms. Druyun had no reporting structure or
   requirement to justify her actions.

   According to the “Final Report of the Defense Science Board (DSB) Task Force on
   Management Oversight in Acquisition Organizations,” March 2005, Ms. Druyun’s


                                            5
________________________________________________________________________

    subordinates admitted that fear of retribution was certainly an inhibitor to reporting
    her conduct. Few openly questioned her decisions. By virtue of her considerable
    influence over careers and promotions of both military and civilian personnel, she
    appeared to control subordinates and suppress criticism. Her accumulation of
    authority and lack of supervisory oversight may have resulted in an unfair award of
    the FIRST contract to Andersen, which has harmed the Defense acquisition
    community.


Improved Controls
    USD(AT&L), the DSB Task Force, the Secretary of the Air Force, and the DoD IG
    have made recommendations and taken corrective action to mitigate the results of
    Ms. Druyun’s actions.

    USD(AT&L). On March 1, 2005, and March 22, 2005, USD(AT&L) issued
    memorandums to the acquisition workforce that encouraged the acquisition
    community to insist on the highest integrity from our industry partners and to
    question any perceived unethical behavior. The memorandum also stressed the need
    for leaders of the acquisition workforce to earn back the credibility that a transparent
    and honest procurement system must have to function in the public domain.

    On September 26, 2005, USD(AT&L) issued an additional memorandum on
    acquisition integrity and ethics. This memorandum stated that DoD was currently
    reviewing and implementing the 20 recommendations made by the Defense Science
    Board Task Force Report on Management Oversight in Acquisition Organizations.
    The memorandum highlighted some of the recommendations that were already
    implemented or underway:

        •    A Federal Advisory Panel has been established to review the acquisition
             system

        •    USD(AT&L) has reviewed the Department’s policy regarding the acquisition
             of services initiated by the Director of Procurement and Acquisition Policy on
             April 22, 2005;

        •    The Defense Acquisition University developed an online mandatory ethics
             course, which has provided training to 75 percent of the acquisition
             workforce;

        •    1
              The Defense Acquisition University implemented a 360-degree
             developmental tool for senior acquisition executives;

        •    DoD is incorporating best practices and lessons learned into the Defense
             Acquisition Guidebook; and

        •    USD(AT&L) has temporarily assumed milestone decision authority for the
             Air Force’s Acquisition Category IC programs.

1
  The 360 degree assessment is a tool that uses “Multi-Rater Feedback” to provide feedback on critical
skills such as thinking, leadership, and communication.



                                                    6
________________________________________________________________________


   DSB Task Force. The DSB Task Force report provided numerous recommendations
   that would enhance acquisition within the Department. Including the previously
   mentioned recommendations, the report recommended that the Department do a top-
   down internal assessment to simplify and streamline the acquisition process. The
   Task Force also recommended that the Department encourage and reward integrity
   and mutual respect; include processes and oversight that reinforce key principles such
   as open communication, distribution of authority, and ethical and respectful behaviors
   that will improve decision making and make transgressions more difficult to hide.

   With specific reference to the issues outlined in this report, the Task Force report
   stated that USD(AT&L) should distribute the delegation of acquisition
   responsibilities among qualified acquisition personnel and allow additional avenues
   for voicing concerns, such as ombudsmen and ethics offices. Regarding oversight of
   processes and practices, the Department should require periodic self-assessments of
   acquisition organizations, practices, and processes, and specifically monitor senior
   acquisition personnel performance and tenure.

   Air Force. On June 6, 2005, the Secretary of the Air Force, Chief of Staff, issued a
   memorandum that emphasized the importance of potential offerors being treated in a
   manner that prevents them from gaining an unfair competitive advantage. The
   memorandum reiterated that thorough records should be maintained describing
   interactions with potential offerors. In addition, the memorandum specified that
   minutes of meetings, attendee lists, discussion items, and briefing charts are elements
   that should be provided to the contracting officer for inclusion in the contract file.
   The Air Force also developed mandatory procedure number MP5315.3, “Source
   Selection,” March 17, 2005. This procedure includes detailed guidance on protection
   of source selection documentation; the Source Selection Advisory Counsel; the
   Source Selection Evaluation Team; and the source selection plan, evaluation, and
   basis for award criteria.

   DoD IG. The DoD IG is issuing reports on the eight contracts we were requested to
   review. Of those eight, two reports specifically provide recommendations that would
   mitigate actions such as Ms. Druyun’s on the FIRST source selection.

   Our audit report D-2006-058, “Source Selection Procedures for the C-5 Avionics
   Modernization Program,” February 28, 2006, recommends that the Assistant
   Secretary of the Air Force for Acquisition identify the source selection process as a
   high-risk area vulnerable to manipulation and establish a systematic review process
   that tests the effectiveness of controls over the source selection process. The Military
   Deputy concurred with the recommendations and agreed to identify the source
   selection process as a high risk area. In addition, the Air Force will add the source
   selection process as an assessable unit to their Major Command and Direct Reporting
   Unit management control plans. Once implemented, this recommendation will
   improve oversight of the source selection process and incorporate accountability on
   source selection decisions within the management control program.

   Our audit report D2006-065, “Audit of Procurement Procedures Used for F-16
   Mission Training Center Simulator Service,” March 24, 2006, recommends that the
   Assistance Secretary of the Air Force (Acquisition) establish management controls to
   prevent senior acquisition personnel from directing contract adjustments that do not
   comply with Federal acquisition policy. The Military Deputy of the Office of the
   Assistant Secretary of the Air Force (Acquisition) concurred and stated that the


                                            7
________________________________________________________________________

   Principal Deputy Assistant Secretary of the Air Force position has been eliminated
   and the responsibilities of that office have been redistributed to more appropriate
   levels of oversight consistent with the FAR. In addition, the Air Force stated it would
   continue to review the acquisition process and implement more effective management
   controls to prevent senior acquisition personnel from exerting inappropriate influence
   on contract actions. The implementation of this recommendation encourages
   separation of duties and better oversight and accountability for the source selection
   authority.




                                            8
________________________________________________________________________


Appendix A. Scope and Methodology
      Review of Source Selection Documents. We reviewed the procedures and
      documentation used to support the Air Force decision to award the FIRST
      contract to Andersen Consulting. We interviewed acquisition personnel at the
      Office of the Assistant Secretary of the Air Force (Acquisition) Headquarters,
      Washington, D.C.; Hanscom Air Force Base, Bedford, Massachusetts; Wright-
      Patterson Air Force Base, Dayton, Ohio; Eglin Air Force Base, Pensacola,
      Florida; Maxwell Air Force Base, Alabama; and the Defense Logistics Agency
      contracting office, Philadelphia, Pennsylvania. The limited documentation in the
      contract file that we reviewed included briefing charts, source selection plan,
      source selection decision document, and past performance contractor data. The
      dates of the documentation we reviewed ranged from August 2000 through April
      2001, when the award was made.

     We performed this audit from April 2005 through July 2006 in accordance with
     generally accepted government auditing standards. Our scope was limited
     because of the lack of supporting documentation for decisions that were made in
     the course of awarding the contract. Also, personnel had difficulty remembering
     certain facts because of lapsed time since the contract award in 2001.

      The Management Control program was not an audit objective, and we did not
      review the program.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this audit.

      Government Accountability Office High-Risk Area. The Government
      Accountability Office has identified several high-risk areas in DoD. This report
      provides coverage of the DoD Contract Management high-risk area.


Prior Audit Coverage.
      During the last 5 years, the Government Accountability Office (GAO), Office of
      the Secretary of Defense, and the Office of the Inspector General (DoD IG) issued
      six reports related to source selection actions involving Darleen Druyun.
      Unrestricted GAO and DoD IG reports may be accessed over the Internet at
      http://www.gao/gov and www.dodig.mil/audit/reports respectively.


GAO
      Report No. GAO-05-436T, “Air Force Procurement: Protests Challenging Role
      of Biased Official Sustained,” April 14, 2005




                                          9
________________________________________________________________________


Office of the Secretary of Defense
      “Report of the Defense Science Board Task Force on Management Oversight in
      Acquisition Organizations,” March 2005


DoD IG
      DoD IG Report No. D-2006-65, “Procurement Procedures Used for F-16 Mission
      Training Center Simulator Services,” March 24, 2006

      DoD IG Report No. D-2006-058, “Source Selection Procedures for the C-5
      Avionics Modernization Program,” February 28, 2006




                                       10
________________________________________________________________________


Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Acquisition)
Auditor General, Department of the Air Force

Other Defense Organizations
Chairman, Defense Science Board Task Force

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          11
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Michael Perkins
Jacqueline Vos
Charles Brown
Auburn Parker
Fatuma Marjan
Catherine Bird
